2311 Douglas Street
Omaha, Nebraska 68102-1214

COCKLE

: E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 21-241
MONSANTO COMPANY,
Petitioner,
v.
EDWIN HARDEMAN,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule’33.1(h), I certify that the BRIEF OF THE PRODUCT
LIABILITY ADVISORY COUNCIL, INC. AS AMICUS CURIAE IN SUPPORT OF PETITION
FOR A WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 5426 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 1st day of October, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

hen eicn| onsen) Aevze. 0 Cadi? Queda Ke. Ch Lotns

My Comm. Exp. September 5, 2023
Notary Public Affiant

 
